                                                                                                      -aC
                                                                              /I

                                                NATIONAL SCIENCE FOUNDAfiON                   C1oseoutPage
                                                      4201 WILSON BOULEVARDil
                                                     ARLINGTON, VIRGINIA 22230




                      OFFICE OF
                 INSPECTOR GENERAL


                  MEMORANDUM




                                                                                         )
                  Date:              September 15,1998
I


                  To:                File No. I98040011   -   -              - .

                  From:                               pecial Agent, Investigations Section

                  Re:                Case Closeout



                  NSF-OIG Audit referred a finding to the Investigations Section
                                                        NSF supported
    I                                                     These salary

                                                       ewed the audit findings and NSF grant for
                  potential misappropriation of NSF funds.



                                                                  m?
                  Investimtion                                                     ,

        I
                  A review of the audit report found that the        d ove&aid three fellows during
                  1996. Aftef the audit, the        conducte a t orough re4ew of all fellowship
                  payments a*d concluded that no other fellows were overpaid
        ,I                                                                         1)

                  The auditor stated that the overpayments appeared to be an ~ccountingerror, and the
                        r had reimbursed the NSF grant. The accountant at the             stated that the
            I
                  overpayments resulted from an error in calculating the fellows' salaries. The fellows have
                  paid back the amount they were overpaid.

                  Conclusions

                  There is no evidence of misappropriation of funds and the ovl&rpayment  appears to have
             I
                  been caused by an accounting error. Based on these findings: this case is closed.
